No. 20-322

In the Supreme Court of the United States
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Petitioners,
v.
ESTEBAN ALEMAN GONZALEZ, ET AL.,
Respondents.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Petitioners,
v.
EDWIN OMAR FLORES TEJADA, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the accompanying
amicus curiae brief of Immigration Reform Law Institute in the above-captioned matter
contains 3,165 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 13, 2020.

/s/ Lawrence J. Joseph
Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: (202) 355-9452
Email: ljoseph@larryjoseph.com
Counsel for Amicus Curiae

